No:

IN THE
SUPREME COURT OF THE UNITED STATES

TIMOTHY CARVER,
Petitioner,
Vv.
UNITED STATES OF AMERICA,

Respondent.
DECLARATION VERIFYING TIMELY FILING

Petitioner, TIMOTHY CARVER, through undersigned counsel and pursuant to SuP. CT.
R. 29.2 and 28 U.S.C. ยง 1746, declares that the Petition for Writ of Certiorari filed in the above-
styled matter was placed in the U.S. mail in a prepaid first class envelope, addressed to the Clerk of
the Supreme Court of the United States, on the 8th day of March, 2021, which is the date that the

petition for writ of certiorari is due.

7 4 ยง
rapuclarg s = Raypeeo
Jacqueline E. Shapiro
40 N.W, 3rd Street,
Penthouse One
Miami, FL 33128
Tel. 305-403-8207

Miami, Florida
March 2021
